NO.

 

 

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
GARY SIMMONDS
Petitioner,
v.

TERRITORY OF THE VIRGIN ISLANDS,

Respondent.

PROOF OF SERVICE
I, Kelechukwu Chidi Onyejekwe, Appellate Public Defender at the Office of
the Territorial Public Defender, do declare under penalty of perjury that | am a
member of the bar of this Court and appellate counsel for petitioner. Gary
Simmonds, and I do further declare that on this date, Friday, July 16, 2021, as

required by Supreme Court Rule 29, I have served the enclosed MOTION FOR

32
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a commercial carrier for delivery
within three (3) calendar days.
The names and addresses of those served are as follows:

Pamela R. Tepper, Esq.

Solicitor-General

Office of the Solicitor General

Virgin Islands Department of Justice

48B-50C Kronprindens Gade, 24 Floor

St. Thomas, Virgin Islands 00802

I declare under penalty of perjury that the following is true and correct.

Executed on Friday, July 16, 2021.

Pelechukuarle.Onyéyehe
Kelechukwu Chidi Onyejekwe

Appellate Public Defender
Office of the Territorial Public Defender
Counsel of Record

33
